No. 19-827

 

IN THE
Supreme Court of the United States

GUAM, GUAM ELECTION COMMISSION, and MICHAEL
J. PEREZ, ALICE M. TAIJERON, G. PATRICK CIVILLE,
JOSEPH P. MAFNAS, JOAQUIN P. PEREZ, GERARD C,
CRISOSTOMO, and ANTONIA GUMATAOTAO, in Their
Official Capacities as Members of the Guam
Election Commission,

Petitioners,
v.

ARNOLD Davis, on behalf of himself and all others
similarly situated,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 13, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
